                 Department of Veterans Affairs
                 Office of Inspector General



                   Office of Healthcare Inspections

Report No. 13-01987-263



             Healthcare Inspection


     Review of Veterans Health

    Administration Follow-Up on

 Inappropriate Use of Insulin Pens at

         Medical Facilities





August 1, 2013

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                          Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


                                                     Contents
                                                                                                                         Page



Executive Summary ..............................................................................................i


Purpose .................................................................................................................1


Background ..........................................................................................................1


Scope and Methodology......................................................................................3


Inspection Results ...............................................................................................4


   Issue 1. VHA Assessment of Insulin Pen Use at Facilities. ............................................ 4


   Issue 2. Policies and Procedures for Patient Safety Notifications. .................................. 9


   Issue 3. Ensuring Proper Use of Medical Products and Devices................................... 12


   Issue 4. VHA Infection Prevention Activities. .............................................................. 15


Conclusions ........................................................................................................ 17


Recommendations ............................................................................................. 18


Appendixes


   A. Under Secretary for Health Comments.................................................................... 19


   B. OIG Contact and Staff Acknowledgments............................................................... 23


   C. Report Distribution................................................................................................... 24






VA Office of Inspector General
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities



                                 Executive Summary


The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to evaluate how the Veterans Health Administration (VHA) followed up on
the inappropriate use of insulin pens at the VA Western New York Healthcare System,
Buffalo, NY (the Buffalo facility), and to determine what controls VHA has in place to
minimize the risk of other incidents involving insulin pens and similar devices. We
conducted the inspection at the request of the Ranking Member, Senate Committee on
Veterans’ Affairs to look at issues related to VHA’s management of patient safety alerts,
new medical products and devices, and infection prevention activities. We prepared a
separate report on the specific circumstances of the misuse at the Buffalo facility.

VHA’s internal assessments following the Buffalo incident did not include clear,
standard guidance to facilities on how to perform and document their audits of insulin
pen use, and we found no documentation to support their internal reviews and
significant variation in how facilities conducted their reviews. However, our onsite work
at 4 facilities, including interviews with over 150 nurses, found no evidence of
widespread, systemic reuse of insulin pens on multiple patients. The majority of nurses
we spoke to understood that insulin pens were intended for single-patient use.
Furthermore, on January 17, 2013, VHA generally prohibited the use of multi-dose
insulin pens on inpatient units, effective February 4, 2013.

In addition to the Buffalo incident, nurses at two other facilities were found to have
inappropriately used insulin pens on multiple patients. In January 2013, the W.G.
Hefner VA Medical Center, Salisbury, NC, reported that two nurses had inappropriately
used insulin pens on multiple patients. VHA instituted large-scale adverse event
disclosure to notify 266 at-risk patients. At another facility, a nurse acknowledged using
a pen on two patients on one occasion. Facility officials identified the one at-risk
patient, promptly notified the patient, and provided tests for bloodborne pathogens.
Furthermore, at two facilities, a significant number of nurses used the insulin pens
contrary to pen design. While this practice did not put patients at increased risk for
bloodborne pathogens, it may have resulted in pen damage and dosing inaccuracies.

We identified two contributing factors to explain why some nurses misused the insulin
pens. Facilities did not fully evaluate the risks of using insulin pens on inpatient units,
specifically in regards to the impact on nursing procedures, or provide comprehensive
nurse education on the pens.

Further, we found that VHA has processes in place to identify important patient safety
alerts, including product recalls, and disseminate this information to facility managers.
VHA’s National Center for Patient Safety and Pharmacy Benefits Management Service
lead VHA’s efforts to collect patient safety information and share this information with
facilities. At the facility level, patient safety managers are responsible for disseminating
alerts to appropriate administrative and clinical staff and tracking the facility’s response
through a national database.




VA Office of Inspector General                                                                        i
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


We also found that VHA has numerous policies and procedures in place to address
infection prevention. However, as medical technology continues to advance and VHA
continues to serve high-risk populations, they will need to be vigilant and ensure
processes are in place to continually educate staff, patients, and visitors as new risks
emerge.

We recommended that the Under Secretary for Health implement procedures to ensure
that future VHA internal assessments resulting from adverse events include clear
guidance to facilities on minimal required steps and supporting documentation; require
facilities to develop processes for assessing the risks and benefits of adopting new
medical products or devices that may require significant changes in nursing procedures;
and ensure that facility nursing education departments are sufficiently staffed to provide
comprehensive and ongoing nursing education, especially when adopting new medical
products or devices that may significantly change nursing procedures.

Comments
The Under Secretary for Health concurred with our findings and recommendations and
provided an acceptable action plan. (See Appendix A, pages 19–22 for the Under
Secretary’s comments.) We will follow up on the planned actions until they are
completed.




                                                             JOHN D. DAIGH, JR., M.D.
                                                            Assistant Inspector General for
                                                              Healthcare Inspections




VA Office of Inspector General                                                                        ii
                      Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


                                              Purpose

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to evaluate how the Veterans Health Administration (VHA) followed up on
the inappropriate use of insulin pens at the VA Western New York Healthcare System,
Buffalo, NY (Buffalo facility) and to determine what controls VHA has in place to
minimize the risk of other incidents involving insulin pens and similar devices. We
conducted the inspection at the request of the Ranking Member, Senate Committee on
Veterans’ Affairs. On May 9, 2013, the OIG issued a separate report addressing the
specific circumstances of the misuse at the Buffalo facility.1 This report addresses
broader questions pertaining to insulin pen use at other facilities, as well as VHA
oversight and follow-up.

The purpose of the inspection was to:

    		 Evaluate the steps VHA took to assess the safety of insulin pen use at other
        facilities after the Buffalo facility reported misuse of insulin pens.

    		 Determine if VHA has established effective mechanisms and policies to ensure
        facilities are aware of important patient safety notifications.

    		 Identify what gaps need to be filled to ensure the proper use of new medical
        devices and products in facilities.

    		 Describe what policies and procedures VHA has in place to address infection
        prevention in facilities.

                                           Background


In late 2012, during a monthly inspection of medication carts on an inpatient unit, the
Chief of Pharmacy at the Buffalo facility discovered several single-patient use insulin
pens with no patient labels in a supply drawer of a medication cart. The Chief of
Pharmacy and facility managers subsequently found more pens without patient labels in
medication carts on other inpatient units. When queried, several nurses reportedly
acknowledged using the pens on multiple patients; although, they changed the needles
before each use.

Facility managers reported the incident to VHA officials, prompting further reviews and
the decision to notify all the patients at the facility who may have been exposed to
bloodborne pathogens as a result of the pen misuse. On January 11, 2013, VHA
notified Members of Congress and at-risk patients of the incident. Around the same
time, a second facility, the W.G. Hefner VA Medical Center, Salisbury, NC (the
Salisbury facility) reported that two nurses had inappropriately used insulin pens on
multiple patients. Following this incident, the Ranking Member, Senate Committee on

1
 OIG Report 13-01320-200, Healthcare Inspection – Inappropriate Use of Insulin Pens, VA Western New York
Healthcare System, Buffalo, New York, May 9, 2013.


VA Office of Inspector General                                                                             1
                        Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities

Veterans’ Affairs, requested that we look at broader issues related to VHA’s
management of patient safety alerts, new medical products and devices, and infection
prevention activities.

On January 17, 2013, VHA prohibited the use of multi-dose insulin pens on inpatient
units, with several exceptions, effective February 4, 2013.

Insulin Pens. Insulin pens are typically the size and shape of a large marker. Insulin
pens were originally developed for outpatient use because they are portable and
convenient for patients when they are away from home or who may have vision
impairment or dexterity problems. Facilities most commonly use disposable insulin
pens that include a pre-filled cartridge containing the insulin. To use the pens, a needle
is attached to the tip of the pen each time it is used; the needle is disposed of after each
use.

Infection Risk Associated with Insulin Pens. Insulin pens are designed for single-
patient use. Due to potential backflow of a patient’s blood into the pen cartridge after an
injection, using a pen on multiple patients may expose patients to bloodborne
pathogens, such as the human immunodeficiency virus (HIV), hepatitis B virus (HBV),
and hepatitis C virus (HCV), if a pen had previously been used on an infected patient.2,3
Although medical literature describes the risks and potential for exposure to bloodborne
pathogens, we found no documented cases of actual transmission of bloodborne
pathogens related to the use of insulin pens on multiple patients.4

Alerts and Warnings about Use of Insulin Pens on Multiple Patients. Since at least
2008, several patient safety and Government organizations have issued alerts and
warnings related to insulin pens, specifically warning against using pens on multiple
patients. In 2008–2009, the Institute of Safe Medication Practices (ISMP), a non-profit
patient safety organization, published several articles regarding the safe use of insulin
pens. The first article described the risk of regurgitation of blood into the cartridges of
insulin pens and emphasized that the pens must not be shared between patients.5 The
second article provided tips to hospitals considering use of insulin pens and cited
common problems with the pens, including potential for improper use on multiple
patients.6 The third article, urged hospitals to “provide education and continuous




2
  Le Floch JP, Herbreteau C, Lange F, Perlemuter L. 1998. “Biological Material in Needles and Cartridges After


Insulin Injection With a Pen in Diabetic Patients,” Diabetes Care 21:9, 1502–1504.


3
  Sonoki K, Yoshinari M, Iwase M, Tashiro K, et al. 2001. “Regurgitation of Blood into Insulin Cartridges in the


Pen-like Injectors,” Diabetes Care 24:3, 603–604.


4
  Hakre S, Upshaw-Combs DR, Sanders-Buell EE, Scoville SL, et al. 2012. “An Investigation of Bloodborne


Pathogen Transmission Due to Multipatient Sharing on Insulin Pens,” Military Medicine 177:8, 930–938.


5
  ISMP Medication Safety Alert!, “Cross Contamination with Insulin Pens,” March 27, 2008,


http://www.ismp.org/newsletters/acutecare/articles/20080327_1.asp, accessed on 2/22/13.


6
  ISMP Medication Safety Alert!, “Considering Insulin Pens for Routine Hospital Use?” May 8, 2008,


http://www.ismp.org/newsletters/acutecare/articles/20080508.asp, accessed on 2/22/13.




VA Office of Inspector General                                                                                       2
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities

monitoring to prohibit situations where an individual patient’s pen might be reused for
another patient.”7

In March 2009, the Food and Drug Administration (FDA) issued an alert to health care
professionals reminding them that insulin pens and insulin cartridges should never be
shared among patients. The alert cited the risk of transmitting bloodborne pathogens,
such as HIV and hepatitis, and recommended labeling pens with patient names and
other identifiers to reduce the risk of improperly using pens on multiple patients.8

                                 Scope and Methodology


We interviewed officials from VHA’s National Center for Patient Safety (NCPS), National
Infectious Disease Service, and Pharmacy Benefits Management (PBM) Service. We
reviewed relevant VHA policies and procedures and documentation from VHA’s internal
reviews of insulin pen use.

We also conducted site visits to four VHA medical facilities identified by NCPS as high
users of insulin pens in fiscal year (FY) 2012. The sites were: the Louis Stokes
Cleveland VA Medical Center, Cleveland, OH (the Cleveland facility); the W. G. (Bill)
Hefner VA Medical Center (the Salisbury facility); the George E. Wahlen VA Medical
Center, Salt Lake City, UT (the Salt Lake City facility); and the Robert J. Dole VA
Medical Center, Wichita, KS (the Wichita facility). The sites are located in four different
Veterans Service Integrated Networks (VISNs). During the site visits, we interviewed
facility leaders, pharmacy officials, patient safety officials, nurse educators, and infection
prevention specialists. We also interviewed registered nurses (RNs) and licensed
practical nurses (LPNs) on various inpatient units and shifts. We reviewed relevant
facility policies and procedures, nurse training records, infection prevention risk
assessments, and minutes from various facility committees, including infection
prevention and pharmacy and therapeutics (P&T).

Our review periods varied by facility based on when they initiated the use of insulin pens
on inpatient units. The Cleveland, Salt Lake City, and Wichita facilities introduced the
insulin pens in about 2008, and the Salisbury facility introduced the pens in 2010.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




7
  ISMP Medication Safety Alert!, “Reuse of Insulin Pen for Multiple Patients Risks Transmission of Bloodborne
Disease,” February 12, 2009, http://www.ismp.org/newsletters/acutecare/articles/20090212-2.asp, accessed on
2/22/13.
8
  FDA Alert, Information for Healthcare Professionals: Risk of Transmission of Blood-borne Pathogens from Shared
Use of Insulin Pens, March 19, 2009,
http://www.fda.gov/Drugs/DrugSafety/PostmarketDrugSafetyInformationforPatientsandProviders/DrugSafetyInfor
mationforHeathcareProfessionals/ucm133352.htm., accessed on 2/22/13.


VA Office of Inspector General                                                                                3
                        Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities



                                        Inspection Results


Issue 1: VHA Assessment of Insulin Pen Use at Facilities

Although we found that VHA’s internal assessments following the Buffalo incident
should have included clear, standard guidance to facilities on how to perform and
document their audits of insulin pen use, our onsite work at 4 facilities, including
interviews with over 150 nurses, found no evidence of widespread, systemic reuse of
insulin pens on multiple patients. The majority of nurses we spoke to understood that
insulin pens were intended for single-patient use.

Following the Buffalo incident, VHA took a two-step approach to determine if nurses at
other facilities were inappropriately using insulin pens on multiple patients. VHA’s initial
review, in early December 2012, included a small number of facilities identified as high-
users of insulin pens.         VHA’s subsequent review of all facilities occurred on
January 9, 2013—2 days before VHA notified Members of Congress and patients about
the misuse of pens at the Buffalo facility. For the reviews, VHA officials asked facility
officials to respond to two “yes” or “no” questions. However, they provided little
guidance to facility officials about auditing their use of insulin pens or documenting the
results of their audits. At the four high-use facilities we visited, we found no
documentation to support their internal reviews, and we found significant variation in
how facilities conducted their reviews to respond to VHA.

VHA Surveys of Facilities. In December 2012, following the Buffalo facility’s report of
insulin pen misuse, the Deputy Under Secretary for Health for Operations and
Management (DUSHOM) instructed NCPS to survey other VHA facilities to determine if
pen misuse was a system wide problem.

Initially, NCPS used Bar Code Medication Administration (BCMA)9 data to identify all the
facilities that had used insulin pens on inpatient units in FY 2012. The BCMA data
showed that in FY 2012, five facilities accounted for over 90 percent of all inpatient
insulin pen use in VA (reported in terms of number of unique patients who were
administered insulin via insulin pens). These facilities were Buffalo, Cleveland,
Salisbury, Salt Lake City, and Wichita.10 Since Buffalo had already self-reported insulin
pen misuse, in early December 2012, an NCPS official contacted the remaining four
high-use facilities and requested that facility managers speak with nursing staff to find
out if anyone was misusing the pens. Initially, all four sites reported that they had no
instances of insulin pen misuse.



9
  BCMA is a software module that facility nurses use to document the administration of medications ordered by
providers.
10
   Due to data limitations in VHA, we could not verify the accuracy of the unique patient counts NCPS obtained
from BCMA. However, based on additional data we obtained from selected facilities and PBM on inpatient
prescriptions, we generally confirmed that the sites identified by NCPS as high-use sites did appear to use insulin
pens more frequently on inpatient units than other sites.


VA Office of Inspector General                                                                                        4
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


On January 9, 2013, NCPS sent out a notification to all VISNs requiring them to contact
each facility in their network, not just high-use facilities, to report on their insulin pen use
and to determine if nursing staff were misusing pens. Facilities were required to
respond by the next day. NCPS provided the following instructions and questions for
the VISNs:

       Question 1: (Pharmacy)
       Contact the chief of pharmacy (or designee) at each VA facility to
       determine if the facility provides any patient care units with anti-diabetic
       pen injectors [insulin pens] for administration to patients by VA staff. If no,
       complete as a negative response on the attached spreadsheet and return
       as directed below. If yes, complete as a positive response and continue to
       question 2.

       Question 2: (Nursing)
       If anti-diabetic pen injectors are currently being used on the patient care
       units, contact the nurse executive (or designee) to determine if the facility
       is sharing anti-diabetic pen injectors between patients. If no, complete as
       a negative response on the attached spreadsheet. If yes, complete as a
       positive response on the attached spreadsheet and stop use of the pen
       injectors by changing to multi-dose vials (follow the issue brief process
       after submitting the spreadsheet).

NCPS received responses from 143 VHA facilities—107 facilities responded that they
did not provide insulin pens to inpatient units and 36 responded that they did provide
insulin pens to inpatients. All 36 facilities that used insulin pens on inpatient units
reported no instances of insulin pen misuse. However, the Salisbury facility later
reported that two nurses admitted to using insulin pens on multiple patients.

For both the December and January requests, neither NCPS nor the DUSHOM’s office
provided specific guidance on how facilities were supposed to conduct their audits of
insulin pen use; for example, if facilities were expected to interview nursing staff,
document the results of interviews, or inspect units for unlabeled insulin pens.
Responses from the facilities were in a “Yes/No” format, and facilities were not required
to submit supporting documentation.

Reviews of Insulin Pen Use at Four High-Use Facilities. The four facilities identified
by NCPS as high-use sites took varying approaches in their responses to NCPS’s
request to review their insulin pen use. None of the facilities maintained documentation
of their audits, other than the completed spreadsheet sent to NCPS.

   		 Cleveland Facility. Officials at this facility reported that they initiated a review of
       insulin pens in early December 2012 after becoming aware of the issue at the
       Buffalo facility. For this review, quality management staff conducted rounds of
       inpatient units and queried approximately 75 nurses from various shifts and units
       on their knowledge of the proper use of insulin pens. None of the nurses
       reported using the pens on multiple patients.


VA Office of Inspector General                                                                       5
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


     		 Salisbury Facility. Quality management staff reported that they initially
         interviewed a “limited number” of nurses in response to NCPS’s December
         notification and had no reports of insulin pen sharing. Facility leadership later
         decided that all nurses on all shifts should be interviewed. Initially, none of the
         nurses interviewed reported using the pens on multiple patients; however, two
         nurses later came forward. (See detailed discussion of the Salisbury facility
         below.)

     		 Salt Lake City Facility. Quality management staff reported that they spoke to
         “10 or 20” day shift nurses on all 6 inpatient units. They also inspected
         medication refrigerators for any unlabeled insulin pens or insulin pens for
         discharged patients. In addition, the facility nurse executive instructed nurse
         managers to provide refresher training on the insulin pens and query unit nurses
         about possible misuse of the pens. None of the nurses reported using the pens
         on multiple patients, and quality management staff did not find pens in the
         medication refrigerators.

     		 Wichita Facility. Patient safety staff reported that they inspected patient drawers
         in the unit medication carts and determined that the drawers contained pens that
         were properly labeled with patients’ names. As part of this review, they
         interviewed “a few” nurses on the units. None of the nurses reported using the
         pens on multiple patients.

Insulin Pen Misuse at the Salisbury Facility. The Salisbury facility was the only
facility that reported insulin pen misuse to NCPS. According to officials at the facility, an
LPN in the community living center admitted to using insulin pens on multiple patients.
Several days later, an RN on an acute medical/surgical inpatient unit, who had been on
leave during the expanded interviews, also admitted to using insulin pens on multiple
patients. Both nurses reported that they changed the needles on the pens prior to use.

In response to the two nurses’ admissions, facility leaders notified NCPS and the
DUSHOM, initiated a “look back” process to identify at-risk patients, and discontinued
the use of insulin pens on all inpatient units. During the look back process, an infectious
disease specialist and clinical officials at the facility determined that a total of
266 patients may have potentially been exposed to bloodborne pathogens when the
2 nurses used the insulin pens on multiple patients. Because the 2 nurses could not
recall exactly when they misused the pens or identify specific at-risk patients, the
266 represents all patients who received insulin pen injections from the 2 nurses while
hospitalized between September 1, 2010, the initial roll-out date of the pens, to
January 10, 2013, when the misuse was reported.

In accordance with VHA’s disclosure process, the DUSHOM convened a Subject Matter
Expert (SME) Review Panel to conduct fact-finding, assess the risks, and determine if
large-scale adverse event disclosure was warranted.11 The SME Review Panel

11
 VHA’s disclosure process is outlined in VHA Handbook 1004.08, “Disclosure of Adverse Events to Patients,”
October 2, 2012.


VA Office of Inspector General                                                                               6
                        Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


concluded that the risk was “not negligible” and recommended large-scale adverse
event disclosure. They also concurred with the number of patients the facility identified
as being at-risk for HBV, HCV, and HIV. Five tests were recommended for the initial
testing with additional tests based on those results.12

On March 7, 2013, VHA initiated the large-scale adverse event disclosure to notify
patients of their possible exposure to bloodborne pathogens from the misuse of insulin
pens at the Salisbury facility. While some of the at-risk patients have died since being
hospitalized at the facility, none of the deaths were attributed to bloodborne pathogens.
As of June 4, 2013, 190 of the 266 patients were known to be still living, and 161
(85 percent) of the living, at-risk patients had been tested. Fourteen patients were
being contacted for testing or are awaiting completion of their testing. The facility has
been unable to contact or obtain a response from 10 veterans. Five patients refused
testing.

On June 4, 2013, 22 of the patients had at least one positive test with the facility’s initial
screening after exposure. Eleven patients had test results consistent with known pre­
existing infection prior to insulin pen exposure; 1 of the 11 had indeterminate test results
and was undergoing additional testing. None of the patients tested had evidence for
new HCV or HIV infections. Eleven patients had newly discovered blood tests
consistent with previous HBV exposure. None of the 11 had prior blood tests for HBV,
so these patients’ exposure to HBV could have occurred at almost any point in the
patients’ lives prior to testing. All 11 had the combination of positive blood tests
indicating exposure with the development of subsequent immunity.13 No patient had
test results consistent with active or chronic HBV.

The facility is taking the most conservative approach and assuming that the insulin pens
are a possible cause if the pens cannot be “100 percent excluded” as the source of
infection. Determining the actual cause of exposure in these patients is problematic, as
patients had other risk factors for bloodborne pathogens besides insulin pens. In none
of the cases could an insulin pen exposure be identified as the definitive cause of a
positive blood test.

OIG Follow-Up of VHA Reviews. We visited the Salisbury facility, as well as the other
three high-use insulin pen facilities identified by NCPS to interview nurses from different
inpatient units and all shifts.14 We interviewed 152 nurse managers and staff RNs and
LPNs to determine if any nurses had used insulin pens on multiple patients, had
observed other nurses use insulin pens on multiple patients, or had received training on
the pens. We also interviewed the two nurses at the Salisbury facility who admitted to
using insulin pens on multiple patients.


12
   The five tests recommended for the initial testing were: Hepatitis B Surface antigen, Hepatitis B core, the


antibody to Hepatitis B surface antigen, Hepatitis C, and HIV.


13
   Immunity would be indicated by a positive antibody to Hepatitis B surface antigen test.


14
   Our review did not include the Buffalo facility because we had previously reviewed this facility. See OIG Report


13-01320-200, Healthcare Inspection – Inappropriate Use of Insulin Pens, VA Western New York Healthcare


System, Buffalo, New York, May 9, 2013.




VA Office of Inspector General                                                                                     7
                         Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


Of the 152 nurses we interviewed, 1 RN reported using a discharged patient’s insulin
pen on another patient on one occasion. We reported this incident to facility leaders,
who determined that this was an isolated case. Working with the nurse, facility leaders
identified the patient on whom the pen was inappropriately used, notified the patient
through the formal process of institutional disclosure, 15 and offered follow-up testing and
monitoring. The patient agreed to follow-up testing, and the test results were
negative.16

The majority of nurses we interviewed, including the two nurses at the Salisbury facility
who previously admitted to using the pens on multiple patients, recalled receiving some
type of training on the pens either when the pens were rolled out or during orientation.
Over 60 percent of the nurses we interviewed recalled explicitly being told that the pens
were for single-patient use only.

We asked the nurses who reported that they never used the pens on multiple patients
how they knew not to share the pens. The nurses cited the following factors:

     		 Training explicitly addressed that insulin pens are for single-patient use only
     		 Pharmacy labeled the pens with patients’ names
     		 Pens stored in patient-specific medication drawers or boxes
     		 Standard nursing principle that medications should not be shared between
         patients
     		 Standard nursing principle that invasive devices should not be shared between
         patients
     		 Common sense

Several nurses also shared their belief that BCMA includes controls to prevent nurses
from giving one patient’s medication to another patient. However, these controls are
only in place for limited types of medications, such as some intravenous medications.
For most medications, including insulin, BCMA will only alert nurses if they attempt to
administer a medication that a patient does not have a provider’s order for or administer
a medication at the wrong time.

We also asked the three nurses (two at the Salisbury facility and one at another facility)
who admitted to using the pens on multiple patients what the circumstances were and
why they believed the practice to be okay. All three nurses described situations in
which they had to wait for pharmacy to deliver insulin pens for patients on their units.
The nurses believed the delays to be too long, which put their patients at risk, so they
“borrowed” insulin pens from other patients who were on the same type of insulin. Two

15
   VHA Handbook 1004.08, “Disclosure of Adverse Events to Patients,” October 2, 2012, defines institutional


disclosure as “a formal process by which facility leaders, together with clinicians and other appropriate individuals,


inform the patient or the patient’s personal representative that an adverse event has occurred during the patient’s


care that resulted in or is reasonably expected to result in death or serious injury.”


16
   The patient was tested for HIV, HCV, and HBV.




VA Office of Inspector General                                                                                         8
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


of the three nurses stated that they were aware that this practice violated their facility’s
practice regarding insulin pens. All three of the nurses seemed unaware of the risks
associated with backflow into the insulin cartridges and believed that changing the
needle on the insulin pen was sufficient for infection control.

Issue 2: Policies and Procedures for Patient Safety Notifications

Within VHA, NCPS and PBM share responsibility for receiving and disseminating
important patient safety alerts and notifications. Specific roles and responsibilities for
managing alerts are addressed in three VHA policies—VHA National Patient Safety
Improvement Handbook;17 Recall of Defective Medical Devices and Medical Products,
Including Food and Food Products;18 and National PBM Drug Safety Alert Distribution.19

NCPS and PBM receive safety alerts or notifications from a variety of sources external
to VHA, including FDA, The Joint Commission (JC), the Centers for Disease Control
and Prevention (CDC), ISMP, and product manufacturers. Internal alerts may also be
prompted by reports of adverse events at VHA facilities. The most critical alerts involve
product recalls.

FDA is one of the primary sources of information used to create patient safety alerts and
product recalls. For calendar year (CY) 2013 through May 20, 2013, FDA issued
29 safety alerts, which included recalls, pertaining to drugs and therapeutic biologics 20
and 27 safety alerts pertaining to medical devices.21 In CY 2012, FDA issued 68 safety
alerts pertaining to drugs and therapeutic biologics and 50 safety alerts regarding
medical devices.22

NCPS Actions. NCPS uses multiple mechanisms to disseminate important patient
safety information, based on the urgency and specificity of direction that can be given.
Patient Safety Alerts and Patient Safety advisories are two of those communication
mechanisms and are defined as follows:23

        Patient Safety Advisories: are recommendations providing guidance to
        address issues such as equipment design, product failure, procedures, or
        training and may recommend clinician action. Actions are general in
        nature and implementation may be subject to local judgment contingent on
        local conditions.


17
   VHA Handbook 1050.01, “VHA National Patient Safety Improvement Handbook,” March 4, 2011.


18
   VHA Directive 2008-080, “Recall of Defective Medical Devices and Medical Products, Including Food and Food


Products,” November 26, 2008.


19
   VHA Directive 2008-078, “National PBM Drug Safety Alert Distribution,” November 17, 2008.


20
   Therapeutic biologics include products such as gene therapy, vaccines, antitoxins, and blood and blood


components.


21
   2013 Safety Alerts for Human Medical Products, accessed on 5/20/13 at FDA website:


http://www.fda.gov/Safety/MedWatch/SafetyInformation/SafetyAlertsforHumanMedicalProducts/ucm333878.htm.


22
   2012 Safety Alerts for Human Medical Products, accessed on 5/20/13 at FDA website:


http://www.fda.gov/Safety/MedWatch/SafetyInformation/SafetyAlertsforHumanMedicalProducts/ucm285497.htm.


23
   VHA Directive 2008-080.




VA Office of Inspector General                                                                               9
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


        Patient Safety Alerts: are mandates providing specific actions to address
        actual or potential threats to life or health often requiring clinician action.

NCPS develops, and the DUSHOM disseminates, alerts and advisories to VISN and
facility patient safety managers, as well as other administrative and clinical officials
depending on the topic. NCPS alerts and advisories may be related to medical
products and devices, including drugs, as well as clinical software system and other
patient safety issues. NCPS alerts and advisories tend to focus on operational aspects
of patient safety, for example, controlling risks by prohibiting routine use of insulin pens
on inpatient units.

When NCPS issues an alert or advisory, as directed by the DUSHOM, facilities are
required to complete the concrete actions described in the alert or advisory.24 Facility
actions are documented and tracked through the NCPS Product Recall Office’s web-
based database, “VHA Alerts and Recalls.” The VHA Alerts and Recalls database is
the primary repository of all alerts, advisories, notifications, and recalls. As of
April 2013, it contained over 6,400 line items related to alerts and recalls of food
products, drugs, and medical devices and products.

For FY 2013 through April 2013, NCPS issued a total of five alerts—its
January 17 alert25 prohibiting the use of insulin pens for inpatients and four alerts
unrelated to insulin pens. In FY 2012, NCPS issued 10 alerts and 2 advisories. NCPS
did not issue an alert or advisory in 2009, when the FDA issued its alert regarding the
use of insulin pens on multiple patients.26 According to NCPS officials, they did not
issue an alert because very few facilities were using insulin pens at the time.

PBM Actions. To disseminate alerts about drugs, PBM uses two mechanisms—
National PBM Bulletins and National PBM Communications, which are defined as
follows:27

        National PBM Bulletin: a Drug Safety Alert that includes standard
        sections: Issue, Background, Recommendations, and References. . . . The
        recommended actions in a National PBM Bulletin include provider
        notification, as well as actions to be carried out by the provider. When
        warranted, recommended actions include patient notifications by phone
        call, in person, or by letter. Confirmation that actions have been
        completed will be required.



24
   The OIG’s 2008 report, 07-02369-107, Healthcare Inspection: Medical Device Recall Process in Veterans Health


Administration Medical Centers, April 3, 2008, assessed VHA’s medical device recall process and specific


responses to a Patient Safety Alert.


25
   AL 13-04, Patient Safety Alert, Veterans Health Administration Warning System Published by VA Central


Office, Multi-Dose Pen Injectors, January 17, 2013.


26
   FDA Alert, Information for Healthcare Professionals: Risk of Transmission of Blood-borne Pathogens from


Shared Use of Insulin Pens, March 19, 2009.


27
   VHA Directive 2008-078.




VA Office of Inspector General                                                                                10
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


        National PBM Communication: a Drug Safety Alert that does not include
        standard sections, but is warranted to further clarify and/or emphasize
        what is noted in the drug-related safety information. . . . The
        recommended actions in a National PBM Communication include provider
        notification and when warranted, patient notifications by phone call, in
        person or by letter. When warranted, confirmation that actions have been
        completed is required.

PBM disseminates bulletins and communications to an established Drug Safety Alert
Mail Group that includes the DUSHOM; NCPS; VISN directors, chief medical officers,
formulary leaders, and patient safety officials; and facility chiefs of staff, chiefs of
pharmacy, and patient safety managers. PBM alerts typically focus on drug safety
issues, such as risks for adverse reactions to a drug or interactions between drugs. If
an alert is related to a drug recall, PBM and NCPS coordinate the recall together.

For FY 2013 through April 2013, PBM issued a total of 11 alerts—4 National PBM
Bulletins and 7 National PBM Communications. In FY 2012, PBM issued two National
PBM Bulletins and four National PBM Communications. PBM did not issue a bulletin or
communication in 2009, when the FDA issued its alert regarding the use of insulin pens
on multiple patients.28 However, in February 2009, PBM’s Chief Consultant sent an
email to VISN pharmacy officials requesting information on insulin pen use and
protocols at their facilities. Eight of 21 VISNs responded that some facilities in their
networks were using insulin pens on inpatient units but generally described the use as
“rarely.” VISNs with facilities using insulin pens reported that the pens were individually
labeled with each patient’s name.

Management of Alerts and Advisories at Four Facilities. According to VHA policy,
facility patient safety managers are the designated points of contact for alerts and
advisories from NCPS. Drug alerts and advisories also go to facility pharmacy officials.
When facility patient safety and pharmacy officials receive alerts and advisories, they
are responsible for disseminating them to relevant clinical and administrative staff.
Patient safety managers are responsible for tracking and documenting the facilities’
actions in response to alerts and advisories and updating the VHA Alerts and Recall
website.

At the four high-use insulin pen facilities identified by NCPS, patient safety managers
confirmed that they are typically the points of contact for patient safety alerts and
advisories from NCPS, as well as JC alerts. At the Wichita facility, the Director of
Logistics, who is the facility’s recall coordinator, is the primary point of contact for all
alerts, advisories, notifications, and recalls. The facility officials described their
processes for managing alerts and advisories, including coordinating with appropriate
facility officials, such as biomedical engineering or pharmacy, and ensuring that all
required actions are completed, documented, and tracked in the VHA Alerts and Recalls


28
  FDA Alert, Information for Healthcare Professionals: Risk of Transmission of Blood-borne Pathogens from
Shared Use of Insulin Pens, March 19, 2009.


VA Office of Inspector General                                                                              11
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


database. They also reported that certain types of alerts, such as FDA drug alerts are
received by both patient safety and pharmacy officials.

We asked patient safety managers if they were aware of the 2009 FDA alert regarding
insulin pens. Patient safety managers at the Salisbury, Cleveland, and Wichita facilities
did not recall seeing this alert when it came out. However, at the Cleveland facility, the
pharmacy manager was aware of the alert and reportedly disseminated it via an
established email group to all nurses, physicians, and others involved in medication
ordering, dispensing, and administration. At the Salt Lake City facility, officials in both
patient safety and pharmacy were aware of the alert, discussed it at the facility’s
monthly Medication Management Committee meeting, and reviewed their internal
procedures. The facility has a process in place to routinely monitor and review patient
safety alerts and assess the potential impact of alerts on facility practices.

Issue 3: Ensuring Proper Use of Medical Products and Devices

As part of this review, we were asked to identify “gaps” in VHA policies, procedures, and
practices that need to be filled to ensure medical products and devices are not misused
in the future. The FDA classifies insulin pens as drugs;29 therefore, the decision to use
insulin pens is typically under the purview of pharmacy services. However, the design
and mechanics of pens make it similar to other medical devices that are commonly used
by nurses on inpatient units.

Misuse of Insulin Pens. In addition to the 3 nurses who used the pens on multiple
patients, we found that at least 12 nurses at 2 facilities used the pens in a way that was
contrary to the pen design. Although this misuse did not involve using the pen on
multiple patients or potential exposure to bloodborne pathogens, it may have resulted in
damage to the pens and dosing errors.

At two facilities, instead of attaching a safety needle to the pen and administering insulin
directly from the pen, several nurses reported that they used a separate syringe to draw
insulin out of the pen cartridge and administer the insulin to the patient. These nurses
told us they followed this practice because they did not trust the insulin pen to deliver
the full dose of insulin to a patient or because insulin pen needles were sometimes not
readily available. By using the pen in this way, contrary to the manufacturer’s design,
nurses may have inadvertently introduced air bubbles into the pen cartridge and/or
damaged the dose dialing function on the pen. As a result, if a nurse subsequently
used the pen in the proper way, the dose may not have been correct as dialed, and the
number of remaining doses shown in the pen would not be accurate.

At the Buffalo facility, we identified six factors that contributed to the misuse of insulin
pens.30 Two of the six factors that contributed to the misuse of pens at the Buffalo
facility were found to have been contributing factors in misuse of pens at the other high­

29
   US Food and Drug Administration, National Drug Code,


http://www.accessdata.fda.gov/scripts/cder/ndc/default.cfm, accessed June 12, 2013.


30
   OIG Report 13-01320-200, Healthcare Inspection – Inappropriate Use of Insulin Pens, VA Western New York


Healthcare System, Buffalo, New York, May 9, 2013.




VA Office of Inspector General                                                                                 12
                        Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


use facilities as well. Specifically, the facilities did not fully evaluate the risks of using
insulin pens on inpatient units or provide comprehensive nurse education on the pens.

Evaluation of Risks Prior to Introducing Insulin Pens. Adopting a new medical
product or device in a large health care system is a significant event that requires
thorough evaluation of the associated benefits and risks, especially if adopting an item
that will impact nursing procedures. VHA has no policy or process that specifically
addresses how facilities should assess the risk and benefits of adopting new medical
products or devices.       Although the four facilities had policies addressing the
responsibilities of their Commodity Standardization (or similarly titled) Committees for
evaluating new devices or equipment, these committees do not address evaluations of
drugs or drug products. Within VHA, P&T Committees evaluate new drugs and drug
products but do not necessarily address potential changes to nursing procedures
resulting from adopting a new product.

VHA Handbook 1108.08, “VHA Formulary Management Process,” describes VHA’s
process for identifying and reviewing drugs and supplies for addition to the VA National
Formulary (VANF), which is “a listing of products (drugs and supplies) that must be
available for prescription at all VA facilities, and cannot be made non-formulary by a
VISN or individual medical center.”31 Facility P&T Committees are responsible for
reviewing requests for additions to the VANF and making recommendations to the VISN
Formulary Committee.

The decision to introduce the pens at the four facilities was primarily made by pharmacy
staff, and although the facilities’ P&T Committees were aware of the transition to insulin
pens, they were generally not involved in evaluating the risks and benefits of adopting
insulin pens on inpatient units. Furthermore, we found no evidence of structured risk-
benefit analyses in terms of how the introduction of the pens might impact nursing
procedures or of consideration of prior patient safety alerts concerning inappropriate
sharing of pens. Pharmacy officials at all four facilities reported that the decision to
adopt insulin pens was prompted by patient safety concerns regarding medication
errors and the potential for confusing different types of insulin or other medications in
multi-dose vials. Officials also cited cost-savings and reduction in waste as deciding
factors.

While we recognize that not all new medical products require in-depth risk-benefit
analyses, and that it would not be feasible for facilities to conduct risk-benefit analyses
on all new products, implementing a process to ensure that relevant facility committees
and leadership evaluate the risks and benefits before introducing new medical products
or supplies that require changes in nursing procedures may help to reduce the risk of
misuse.

Comprehensive Nurse Education. In their article, “Promoting Safe Use of Medical
Devices,” two FDA Senior Project Managers state that, “Professional nurses in clinical
practice are the principal users of medical devices at the point of care. . . Over time,

31
     VHA Handbook 1108.08, “VHA Formulary Management Process,” dated February 26, 2009.


VA Office of Inspector General                                                                         13
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


these devices have become increasingly complex and sophisticated, reshaping the
delivery of healthcare both in the hospital and the home, and subsequently creating
more challenges for nurses.”32 The authors stress the critical need for comprehensive
medical device education for nurses that focuses on seven areas.

     		 Knowledge of the intended use of the device
     		 Manufacturer’s instructions for use, labeling, warnings, contraindications, and
         known complications
     		 Outcomes of proper use of a device
     		 The agency’s clinical practice manual and nursing education department
         guidelines
     		 The importance of complying with expiration dates (given by manufacturers) that
         indicate the time period for optimal use of ‘shelf life’
     		 Recognition that device sterility may be guaranteed only until the expiration date
     		 Insight into differences in device use and design between similar devices

Insulin pens are not technically categorized as a medical device. However, the fact that
nurses at three of the four high-use facilities visited were misusing the pens in some
way (either by using them on multiple patients or using them in a manner contrary to
manufacturer design), is an indication that the nurses at these facilities may have
benefitted from training that addressed the areas identified by the authors above.

While all four high-use facilities provided insulin pen training to nurses when the pens
were rolled out or as part of nurse orientation, with the exception of the Cleveland
facility, most of the training was not comprehensive. Instead, as with the Buffalo facility,
the training generally focused on the basic mechanics of using the pen—that is,
attaching a safety needle, priming the pen to remove air bubbles, dialing the dose, and
holding down the plunger to ensure the full dose. Although the majority of nurses we
interviewed recalled explicit instructions not to share insulin pens between patients, it is
not clear how many of these nurses fully understood the reason why (that is, risk of
backflow into the cartridge).

The Cleveland facility, which had no identified incidents of misuse, provided the most
comprehensive training, which was coordinated by the facility’s nurse education
department. Training was provided by a pharmaceutical company representative when
the facility introduced the pens in 2008. The representative also provided facility nurse
educators with training kits to conduct ongoing training for nurses who may have missed
the initial training and for newly hired nurses. The facility also provided several
examples of on-going education provided to nurses after the roll-out of insulin pens.
Nurse educators trained nurses to demonstrate the mechanics of using the pens but
also provided the clinical reasons why nurses should never share pens between

32
  Swayze SC and Rich SE. 2011. “Promoting Safe Use of Medical Devices,” The Online Journal of Issues in
Nursing 17:1.


VA Office of Inspector General                                                                            14
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


patients, including a paragraph in a “Nursing Tidbits” newsletter in September 2012,
reiterating the risk of backflow and contamination of pens.

Dedicating sufficient resources to nurse education and strengthening nurse education
practices when introducing new medical products or supplies to address the seven
areas identified above could help to reduce the risk of misuse by providing more in-
depth clinical information to nurses beyond the basic mechanics of using a product.

Issue 4: VHA Infection Prevention Activities

Medical technology, including everyday use medical products and devices, has become
more complex over the last few decades. As technology becomes increasingly
complex, so too does infection prevention. “Modern medical care has become more
invasive and therefore associated with a greater risk of infectious complications.”33
Specific risks include an “…aging population, the AIDS epidemic, the growth of
chemotherapeutic options for cancer treatment, and growing transplant population…”34
as well as patients who “…move freely within sometimes loosely defined elements of
the health care system: between long-term care or rehabilitation facilities, to acute-care
facilities, to free-standing surgical care providers.”35

Infection Prevention Standards and Policy. JC has numerous standards related to
infection prevention at facilities. These standards focus on identifying individuals who
are responsible for infection prevention activities at a facility, allocating sufficient
resources to support activities, identifying risks through risk assessments, setting goals
to address identified risks, developing and implementing plans to reduce risks and
prevent infections, and implementing measures to evaluate plans.

To ensure compliance with JC standards, VHA’s infection prevention practices are
governed by a multitude of regulations, standards, and recommendations related to
hand hygiene, risk assessment, personnel protective equipment, vaccinations,
influenza, reprocessing of reusable medical equipment (RME), water testing,
construction safety, and antimicrobial stewardship. VHA’s National Infectious Disease
Service has primary responsibility for policy development, as well as for developing
national strategies and training. Day-to-day operations and infection prevention
activities occur at the local facility level, which is appropriate given that infection risks
vary by facility depending on location, services offered, populations served, facility age,
availability of resources, and other factors.

Infection Prevention Activities at Four Facilities. In accordance with JC and VHA
requirements, the four high-use insulin pen facilities all have infection prevention
programs including a physician who specializes in infectious disease and a nurse
infection preventionist (or infection control coordinator). The facilities’ programs also

33
   Sydnor ERM and Perl TM. 2011. “Hospital Epidemiology and Infection Control in Acute-Care Settings,” Clinical


Microbiology Reviews 24:1, 141–173.


34
   Sydnor ERM and Perl TM. 2011. Note: Patients in these four categories are considered high risk because they


may be immune system compromised, making them more susceptible to infections.


35
   Sydnor ERM and Perl TM. 2011.




VA Office of Inspector General                                                                               15
                      Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


include infection prevention committees, generally with representation from nursing,
patient safety, sterile processing services, environmental management services, and
clinical areas, such as dental, laboratory, and surgical services.

Facility-level activities include preparing annual risk assessments, training patients and
staff on infection prevention issues, and determining and monitoring facility infection
prevention surveillance activities, such as hand hygiene; proper use of personal
protective equipment; central line and catheter infection rates; or rates of Methicillin­
resistant Staphylococcus aureus (MRSA), clostridium difficile,36 and other hospital-
acquired infections.

According to infection prevention staff at all four facilities, none were involved in the
decision to use insulin pens on inpatient units at their facilities or the initial training of
nursing staff. In part, this was because the decision to use the pens at the facilities was
primarily made by pharmacy, not interdisciplinary teams. Furthermore, several of the
officials we spoke to, including the Director of VHA’s National Infectious Disease
Service, acknowledged that, until the incident at the Buffalo facility, they did not
consider insulin pens to be a significant infection risk. Instead, these officials continued
to focus on prevention of known high-risk, high prevalence issues, such as MRSA and
clostridium difficile.

OIG Prior Reviews of VHA Infection Prevention Activities. As part of the OIG’s
Combined Assessment Program (CAP) reviews, we routinely review various aspects of
facilities’ infection prevention activities. Since 2011, we have issued two reports
addressing these activities.

     		 In October 2011, we published a CAP summary report on “Management of
         Multidrug-Resistant Organisms in Veterans Health Administration Facilities.”37
         We made three recommendations to the Under Secretary for Health to
         strengthen patient, family, and staff education and develop policies and programs
         to control and reduce antimicrobial agent use. As of January 2013, all three
         recommendations were closed.

     		 In September 2011, we published a CAP summary report on “Evaluation of
         Infection Prevention Practices in Veterans Health Administration Facilities.”38 We
         made five recommendations to the Under Secretary for Health to ensure
         corrective actions when hand hygiene performance falls below thresholds,
         ultraviolet germicidal irradiation fixtures are turned on and functioning, negative
         pressure is monitored in airborne infection isolation rooms, employees with
         occupational exposure risks receive annual bloodborne pathogens training, and
         designated employees complete annual N-95 respirator fit testing. As of
         February 2013, all five recommendations were closed.

36
   Clostridium difficile (commonly referred to as “C diff”) is a bacterium that causes severe diarrhea.


37
   OIG Report 11-02870-04, Combined Assessment Program Summary Report – Management of Multidrug-


Resistant Organisms in Veterans Health Administration Facilities, October 14, 2011.


38
   OIG Report 11-03361-274, Combined Assessment Program Summary Report – Evaluation of Infection Prevention


Practices in Veterans Health Administration Facilities, September 13, 2011.




VA Office of Inspector General                                                                           16
                       Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


In addition, we have issued several hotline and follow-up reviews that found that
selected VHA facilities need to strengthen policies and procedures related to the
reprocessing (that is, cleaning, disinfection, and sterilization) of RME. Furthermore, we
cited VHA’s continued challenge of “…maintaining compliance with RME directives,” in
the OIG’s 2012 Major Management Challenges.39

VHA and facility officials we spoke to recognize that infection prevention is an on-going
challenge in health care facilities (not just VHA facilities). These officials also correctly
pointed out that responsibility for infection prevention does not solely rest with one
department or service in a facility—it is the responsibility of all staff and requires
constant vigilance; management support; and continuing education of staff, patients,
and visitors.

                                            Conclusions


Our onsite work at 4 facilities, including interviews with over 150 nurses, found no
evidence of widespread, systemic reuse of insulin pens on multiple patients. The
majority of nurses we spoke to understood that insulin pens were intended for single-
patient use.

VHA’s internal assessments following the Buffalo incident did not include clear,
standard guidance to facilities on how to perform and document their audits of insulin
pen use.

While two other incidents of using pens on multiple patients did occur—one reported by
a facility and one we identified—the incidents were isolated, and facility leaders
responded immediately. In January 2013, the Salisbury facility reported that two nurses
had inappropriately used insulin pens on multiple patients. As a result, VHA instituted
large-scale adverse event disclosure to notify 266 at-risk patients. In addition, we
identified an incident of misuse by one nurse at another facility. Facility officials
identified the at-risk patient, promptly notified the patient, and provided tests for
bloodborne pathogens, which were negative. Furthermore, at two facilities, we found
that a significant number of nurses used the insulin pens contrary to pen design. While
this practice did not put patients at increased risk for bloodborne pathogens, it may have
resulted in pen damage and dosing inaccuracies.

As with the Buffalo incident, we found no single cause as to why nurses misused insulin
pens at the other facilities. Instead, we identified two contributing factors—facilities did
not fully evaluate the risks of using insulin pens on inpatient units or provide
comprehensive nurse education on the pens. On the surface, these factors may appear
to have “simple fixes”; yet, to fully address them, VHA and facilities must consider their
processes for evaluating new medical products and devices, especially in relation to
how these products or devices will impact nursing procedures; the roles and

39
  Major Management Challenges in an annual report prepared by the OIG, in accordance with Section 3516 of
Title 38, that provides a summarization of the most serious management and performance challenges within VA
identified through OIG work.


VA Office of Inspector General                                                                                17
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


responsibilities of facility committees and departments; the sufficiency of resources
dedicated to nurse training; the content and comprehensiveness of nurse training; and
underlying cultural issues regarding the acceptance of new technology and procedural
changes.

As part of this review, we were also asked to evaluate broader issues within VHA
regarding how it collects and disseminates important patient safety alerts and manages
infection prevention activities. We found that VHA has processes in place to identify
important patient safety alerts and disseminate this information to facility managers.
NCPS and PBM lead VHA’s efforts to collect patient safety information and share this
information with facilities. At the facility level, patient safety managers are responsible
for receiving alerts, disseminating them to appropriate administrative and clinical staff,
and tracking the facility’s response through the VHA Alerts and Recalls database. We
also found that VHA has numerous policies and procedures in place to address
infection prevention. However, as medical technology continues to advance and VHA
continues to serve high-risk populations, they will need to be vigilant and ensure
processes are in place to continually educate staff, patients, and visitors as new risks
emerge.

                                  Recommendations


1. We recommended that the Under Secretary for Health implement procedures to
ensure that future VHA internal assessments resulting from adverse events include
clear guidance to facilities on minimal required steps and supporting documentation.

2. We recommended that the Under Secretary for Health require facilities to develop
processes for assessing the risks and benefits of adopting new medical products or
devices that may require significant changes in nursing procedures.

3. We recommended that the Under Secretary for Health ensure that facility nursing
education departments are sufficiently staffed to provide comprehensive and ongoing
nursing education, especially when adopting new medical products or devices that may
significantly change nursing procedures.




VA Office of Inspector General                                                                      18
                        Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities
                                                                                             Appendix A
                   Under Secretary for Health Comments


                 Department of
                 Veterans Affairs                                    Memorandum

   Date:		       July 12, 2013

   From:		       Under Secretary for Health (10)

   Subject:		    OIG Draft Report, Review of VHA Follow-Up on Inappropriate
                 Use of Insulin Pens at Medical Facilities (VAIQ 7370598)

   To:		         The Assistant Inspector General for Healthcare Inspections (54)

                1.		 I have reviewed the draft report and concur with the report’s
                     recommendations. Attached is the Veterans Health Administration’s
                     (VHA) corrective action plan for the report’s recommendations. I
                     am pleased that the OIG review of insulin pen use within VA
                     facilities resulted in similar conclusions as VHA’s assessment
                     following the Buffalo incident. Specifically that there is no evidence
                     of widespread, systemic reuse of insulin pens on multiple patients
                     within VA, and nurses understand that insulin pens are intended for
                     single-patient use.

                2.		 VHA, through the National Center for Patient Safety Alert (AL13­
                     04), provided strong actions to all medical facilities regarding the
                     future use of insulin pens or similar combination medical products
                     (drugs/devices) on patient care units. VHA was the first healthcare
                     organization to prohibit the routine use of insulin pens on patient
                     care units and expanded this action to include all multi-dose pen
                     injectors. Other patient safety organizations have since followed
                     VHA’s lead. The Patient Safety Alert also required facilities to
                     update local policies to ensure individual patient labeling, proper
                     storage, and continuous nursing education with annual competency
                     assessment on the use of pen injectors by hospital staff. All VA
                     facilities reported compliance with the Patient Safety Alert through
                     the National Center for Patient Safety (NCPS) Product Recall
                     Office’s web-based database.

                3.		 VHA’s and OIG’s reviews were also consistent in determining that
                     the risk for blood-borne pathogen transmission from insulin pens is
                     low. While the risk of infection is low, it is not negligible and VHA
                     provided appropriate disclosure and follow-up to patients potentially
                     affected through any inappropriate use of insulin pens. Both



VA Office of Inspector General                                                                         19
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


               reviews were also congruent regarding the scope of insulin pen use
               within the VA as small. Only 5 of 153 medical facilities identified
               high inpatient use of insulin pens in fiscal year 2012, while the
               majority had no to very low use.

           4.		 VHA’s assessment of the potential for inappropriate use of insulin
                pens at other medical facilities was led by NCPS who followed an
                effective and efficient process of investigating patient safety issues.
                NCPS identified the other four high-use facilities and provided
                detailed guidance and critical information to the facilities to
                investigate the potential for inappropriate use of insulin pens. This
                was accomplished through an established patient safety network of
                Veterans Integrated Service Network Patient Safety Officers and
                facility Patient Safety Managers with advanced training and
                experience in patient safety assessment and improvement. The
                investigation also included pharmacy operation managers in the
                four high-use facilities. While NCPS provided clear guidance and
                information to the four high-use facilities to conduct an internal
                audit, guidance was not prescriptive as each facility has the
                necessary patient safety network and professionals with training
                and knowledge on how to conduct a safety audit. Flexibility is also
                required with the facility’s internal assessment as there are
                leadership structure and clinical diversity variations between
                facilities. NCPS also investigated the risk and potential scope of
                inappropriate use of insulin pens across VA, and identified potential
                systems issues with the use of insulin pens for VA patients. As a
                result of VHA’s assessment, inappropriate use of insulin pens was
                identified in a second facility.

           5.		 Thank you for the opportunity to review the draft report. If you have
                any questions, please contact Karen Rasmussen, Acting Director,
                Management Review Service (10AR) at (202) 461-6773.

           Original signed by:
           Robert A. Petzel, M.D.

           Attachment




VA Office of Inspector General                                                                      20
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities



                         Comments to OIG’s Report
The following Under Secretary for Health’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Under Secretary for Health implement
procedures to ensure that future VHA internal assessments resulting from adverse
events include clear guidance to facilities on minimal required steps and supporting
documentation.

Concur

Target date for completion: August 30, 2013

VHA response: In October 2012, the Veterans Health Administration (VHA) issued
Handbook 1004.08, Disclosure of Adverse Events to Patients. This handbook
established required steps for a medical center/ VISN to follow when there is an
adverse event or the potential need for a large-scale disclosure. The handbook
improved the standardization of clinical and institutional disclosure; provided clear
definitions; provided a process for assessment of adverse events; established
mechanisms for convening subject matter expert panels to conduct fact finding; and
provided standards for communication processes.          To enhance these already
established processes, the National Center for Patient Safety (NCPS) will develop a
template for systematically conducting internal VHA assessments in response to
specific adverse events. The template will reference policies and procedures relevant
to the coordination of large-scale disclosures. The template will ensure that the
Director; Chief of Staff; and Associate Director, Patient Care Services (Nurse
Executives), at a minimum, are involved in the process and resulting policy or process
changes.

Recommendation 2. We recommended that the Under Secretary for Health require
facilities to develop processes for assessing the risks and benefits of adopting new
medical products or devices that may require significant changes in nursing procedures.

Concur

Target date for completion: September 30, 2013

VHA response: NCPS will collaborate with the Office of Nursing Services in the
development of a matrix for determining the level of risk and a companion list of Human
Factors Engineering related actions (e.g., labels, checklists, usability testing) for the use
of new medical products or devices for nursing practice. The matrix will include the
requirement for a communication and an appropriate education plan to be coordinated
with the Associate Director, Patient Care Services (Nurse Executives) Office before
distribution to the units. This matrix will be provided to Office of the Deputy Under



VA Office of Inspector General                                                                      21
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities


Secretary for Health Operations and Management for review, concurrence, and
dissemination.

Recommendation 3. We recommended that the Under Secretary for Health ensure
that facility nursing education departments are sufficiently staffed to provide
comprehensive and ongoing nursing education, especially when adopting new medical
products or devices that may significantly change nursing procedures.

Concur

Target date for completion: September 30, 2013

VHA response: NCPS will provide relevant Human Factors Engineering
training/education materials to the Veterans Integrated Service Network (VISN) and
facility leadership for distribution to clinical leaders and staff to assist in mindfulness and
education for use of new medical products or devices. The Associate Director, Patient
Care Services (Nurse Executives) and Chiefs of Staff will enlist Clinical Nurse Leaders,
Clinical Nurse Specialists, and hospitalists at the unit level in each facility to be mindful
of risks in adopting new medical products or devices that impact clinical care (positively
impacting the overall culture of safety on each unit).




VA Office of Inspector General                                                                      22
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities
                                                                                          Appendix B

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Claire McDonald, MPA, Team Leader
                         Annette Acosta, RN, MN
                         Elaine Kahigian, RN, JD
                         Frank Keslof, EMT, MHA
                         Jeanne Martin, PharmD
                         Clarissa Reynolds, CNHA, MBA
                         Robert Yang, MD




VA Office of Inspector General                                                                      23
                     Review of VHA Follow-Up on Inappropriate Use of Insulin Pens at Medical Facilities
                                                                                          Appendix C

                                  Report Distribution
VA Distribution

Office of the Secretary


Veterans Health Administration


Assistant Secretaries


General Counsel


Director, Mid-Atlantic Health Care Network (10N6)


Director, VA Healthcare System of Ohio (10N10)


Director, VA Heartland Network (10N15)


Director, VA Rocky Mountain Network (10N19)


Director, W.G. Hefner VAMC (659/00)


Director, Louis Stokes VAMC (541/00)


Director, George E. Wahlen VAMC (660/00)


Acting Director, Robert J. Dole VAMC (589A7/00)



Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                      24
